<html>
<title> - STATUS OF THE PROCESSING OF THE CAMP ASHRAF RESIDENTS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
         STATUS OF THE PROCESSING OF THE CAMP ASHRAF RESIDENTS 

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 16, 2012

                               __________

                           Serial No. 112-160

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______

                         U.S. GOVERNMENT PRINTING OFFICE 

74-237 PDF                       WASHINGTON : 2012 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 








                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa<greek-l>
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey--
EDWARD R. ROYCE, California              deceased 3/6/12 deg.
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
RON PAUL, Texas                      ELIOT L. ENGEL, New York
MIKE PENCE, Indiana                  GREGORY W. MEEKS, New York
JOE WILSON, South Carolina           RUSS CARNAHAN, Missouri
CONNIE MACK, Florida                 ALBIO SIRES, New Jersey
JEFF FORTENBERRY, Nebraska           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       DENNIS CARDOZA, California
GUS M. BILIRAKIS, Florida            BEN CHANDLER, Kentucky
JEAN SCHMIDT, Ohio                   BRIAN HIGGINS, New York
BILL JOHNSON, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
DAVID RIVERA, Florida                CHRISTOPHER S. MURPHY, Connecticut
MIKE KELLY, Pennsylvania             FREDERICA WILSON, Florida
TIM GRIFFIN, Arkansas                KAREN BASS, California
TOM MARINO, Pennsylvania             WILLIAM KEATING, Massachusetts
JEFF DUNCAN, South Carolina          DAVID CICILLINE, Rhode Island
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

              Subcommittee on Oversight and Investigations

                 DANA ROHRABACHER, California, Chairman
MIKE KELLY, Pennsylvania             RUSS CARNAHAN, Missouri
RON PAUL, Texas                      DAVID CICILLINE, Rhode Island
TED POE, Texas                       KAREN BASS, California
DAVID RIVERA, Florida





                            C O N T E N T S

                              ----------                              
                                                                   Page

                                WITNESS

The Honorable Daniel Fried, Special Advisor on Ashraf, U.S. 
  Department of State............................................     7

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Dana Rohrabacher, a Representative in Congress from 
  the State of California, and chairman, Subcommittee on 
  Oversight and Investigations: Prepared statement...............     3
The Honorable Daniel Fried: Prepared statement...................    10
The Honorable Ted Poe, a Representative in Congress from the 
  State of Texas: Material submitted for the record..............    19
The Honorable Brad Sherman, a Representative in Congress from the 
  State of California: Letter to the Honorable Hillary Rodham 
  Clinton dated April 19, 2012...................................    27
The Honorable Sheila Jackson Lee, a Representative in Congress 
  from the State of Texas: The Wall Street Journal article, 
  ``Iran Excite Group Nears U.S. Rebirth,'' dated May 15, 2012...    39

                                APPENDIX

Hearing notice...................................................    46
Hearing minutes..................................................    47
Questions for the record submitted to the Honorable Daniel Fried 
  by the Honorable Brad Sherman..................................    48


         STATUS OF THE PROCESSING OF THE CAMP ASHRAF RESIDENTS

                              ----------                              


                        WEDNESDAY, MAY 16, 2012

                  House of Representatives,
      Subcommittee on Oversight and Investigations,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:30 p.m., in 
room 2200 Rayburn House Office Building, Hon. Dana Rohrabacher 
(chairman of the subcommittee) presiding.
    Mr. Rohrabacher. This hearing is called to order, the 
Oversight and Investigations Subcommittee of the House Foreign 
Affairs Committee.
    And on February 17th, the first 400 Ashraf MEK members 
began to relocate to Camp Liberty, which is also now called 
Camp Hurriya, a former U.S. military base near Baghdad 
International Airport. This was in accordance with an agreement 
between the United States and Iraq signed on Christmas Day. The 
United Nations High Commissioner for Refugees was formally 
recognized, and has formally recognized the residents of Ashraf 
as a asylum seekers and persons of concern which entitles them 
to protection and humane treatment. Since February, over half 
of the Camp Ashraf residents have been shifted to Camp Liberty 
for UNHCR processing with the aim of moving them out of Iraq to 
safety in other countries.
    At a court hearing here in the District of Columbia on May 
8th, a State Department lawyer trying to defend the continued 
listing of the MEK as a terrorist organization, claimed that 
Camp Ashraf had never been inspected by U.S. forces. His 
implication is that the MEK might not have lived up to its part 
of the 2003 bargain by which it disarmed in exchange for U.S. 
protection. The reaction at Camp Ashraf has been for the MEK to 
halt movement to Camp Liberty and demand an inspection to prove 
that they are not armed. If the inspection does not take place 
until after Camp Ashraf is evacuated, false evidence can be 
planted in the empty camp by Iraqi authorities or Iranian 
agents. So it would have to take place now while the camp is 
still in MEK hands.
    I would like to know whether the State Department 
understood the possible effects of their lawyer's argument. 
Earlier reports implied that matters might be improving and 
might actually be moving in the right direction toward a 
delisting of the MEK, but now the whole issue is up in the air 
for no good reason.
    As to the movement that has already taken place, the MEK 
members have complained that water is in short supply at Camp 
Liberty, electricity is also a problem as the camp is not 
connected to the national grid and the residents rely on small 
generators. And there are reports that their personal 
possessions are being looted by Iraqi troops who have not 
allowed them to move everything to Camp Liberty. Severe 
restrictions have been placed on the ability of those at Camp 
Liberty to communicate with the outside world or to see their 
lawyers. Living conditions are austere, and Iraqi security 
forces have deployed armored vehicles and heavy weapons around 
and in the camp.
    As of May 10th, only 323 MEK members have been interviewed 
by the UNHCR, and will Iraq allow such a slow pace to continue 
and will Iran allow that? If this slow pace continues MEK 
people will be put in jeopardy. Iraqi hostility and Iranian 
plotting must be taken seriously in the wake of the April 8th, 
2011, attack on Camp Ashraf by Iraqi forces that murdered 34 
unarmed civilians and wounded over 300 others. Iraq may have 
promised the UNHCR that there would be no forced return of the 
MEK members to Iran, but can the Maliki Government be trusted 
given its bloody record?
    For the record, I have been denied permission to hold 
investigative hearings on the massacre at Camp Ashraf and to 
explore why the MEK is still designated as a terrorist 
organization. It is of great concern that roadblocks have been 
placed to prevent this Oversight and Investigations 
Subcommittee from doing its job when it comes to this aspect of 
American foreign policy.
    Here to give us an update on the situation in Iraq is 
Ambassador Daniel Fried and the State Department's Special 
Advisor on Camp Ashraf. Before assuming this position, he was 
special envoy for the closure of Guantanamo detainee facility. 
Prior to that he served from 2005 to 2009 as assistant 
secretary for the State for European and Eurasian Affairs. A 
career member of the Foreign Service, which he joined in 1977, 
he has served on the National Security Council's of President 
Obama and Clinton, and was Ambassador to Poland from November 
1977 to May 2000, not a calm period in Polish history. So we 
have with us today a real troubleshooter, proving that they all 
don't look like John Wayne.
    [The prepared statement of Mr. Rohrabacher follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Rohrabacher. And with that, Mr. Carnahan, would you 
have an opening statement as well?
    Mr. Carnahan. Thank you, Mr. Chairman, and I apologize I 
didn't bring any good jokes to start off with.
    Mr. Rohrabacher. I thought I would get a laugh out of that 
John Wayne one.
    Mr. Carnahan. Anyway, seriously I do want to say thank you 
to the chairman for his persistence on this issue, and this is 
the third hearing in the past year on Camp Ashraf. Ambassador 
Fried, thank you for testifying again in front of this 
subcommittee. This hearing provides a timely opportunity for us 
to check on the processing status of the residents at the camp. 
I would also like to take this opportunity to thank many of my 
constituents from back home in St. Louis, Missouri, for their 
work on this important issue. They are a great example of 
citizens being involved to make a difference for those in need.
    In 2003, the residents of Camp Ashraf were granted 
protective status under the Geneva Convention pursuant to the 
Status of Forces Agreement between the U.S. and Iraqi 
Governments. However, jurisdiction of the camp has been under 
the jurisdiction of the Iraqi Government since 2009. Then, 
since late December 2011, the agreement allowing the residents 
to be moved to Camp Liberty, approximately two-thirds of all 
residents have been relocated.
    Ambassador, I will be especially interested to hear about 
the progress that has been made through our bilateral and 
multilateral efforts to move the remaining residents as well as 
an update on the interviews and Refugee Status Determinations 
by the UNHCR. Reports suggest that UNHCR's process of 
conducting individual interviews is going slowly as are the 
Refugee Status Determinations that need to be made in order to 
provide for their permanent relocation. It has become clear 
this process is going to take longer than expected and longer 
than most RSDs conducted by UNHCR. It is imperative that there 
is sufficient time to ensure that this is done in an orderly 
manner and that it also guarantees the safety of the residents.
    I am interested to hear what discussions are being 
undertaken to ensure that this process will be allowed to 
continue beyond any predetermined time deadlines. Certainly a 
long-term solution for the residents is, of course, needed once 
UNHCR completes its interviews and Refugee Status 
Determinations. It would be beneficial to hear some of the 
long-term possibilities including what conversations have been 
had with the residents. I would also be interested to hear 
about what Camp Ashraf in the broader context of U.S. policy 
toward Iraq.
    While the safety of the residents of Camp Ashraf pose 
immediate concern, I would also like to hear the witness 
discuss how our relationship with Iraq has been affected as 
well as how it has impacted the Camp Ashraf issue. I look 
forward to hearing from you today. Thank you again for being 
here, Ambassador.
    Mr. Rohrabacher. Thank you. Another member of the 
committee, Judge Poe, from Texas. You are welcome to make as 
long of remarks, opening remarks as you would choose.
    Mr. Poe. Thank you, Mr. Chairman. Thank you for having this 
hearing. Ambassador Fried, thank you for being here. I also 
want to thank many friends from Texas and other parts of the 
country that are here today who are concerned about their 
families, their loved ones and other patriots in Camp Ashraf 
and Camp Liberty.
    Four years ago, the MEK filed their petition against the 
State Department to delist them as a foreign terrorist 
organization. It has been 2 years since the DC Circuit Court of 
Appeals ruled the State Department violated the MEK's due 
process rights. And so since 2011, June the 6th, the ball has 
been in the State Department's court. The State Department's 
only reason for disregarding the law is that they apparently 
are too busy with other things. The latest excuse is that the 
Secretary is waiting for Camp Ashraf to close. I wonder what 
difference that makes. Now we here a new excuse that there are 
worries from the State Department about alleged weapons in the 
camp.
    But on June 18th, 2003, U.S. General Ray Odierno said that 
``the MEK has been completely disarmed,'' I further quote, 
``and we have taken up all small arms and heavy equipment.'' 
That was our own U.S. military general stating he was 
completely confident there were no weapons in Camp Ashraf. And 
just yesterday, U.S. Brigadier General David Phillips said he 
``systematically searched every square kilometer of the 36-
square kilometer facility with American troops in 2003 and 
found no weapons.'' Two generals are on record that they 
completely searched the camp, so why is the State Department 
now alleging that there are weapons in the camp? Produce one of 
those weapons, any weapon that has allegedly been found in that 
camp. But yet they don't appear probably because they don't 
exist.
    Does the State Department believe the residents rearmed 
while they were under U.S. control from 2003 to 2008 or that 
they rearmed after we left? That is, of course, unlikely and 
absurd given twice when the camp was attacked by the Iraqis 
with automatic weapons and dozens of residents in Camp Ashraf 
were killed and murdered, no weapons were ever used by those 
residents to defend themselves. All they had were rocks, and 
they threw rocks when they could to protect themselves and 
their families. So are the rocks the weapons the State 
Department is concerned about? We don't know.
    And once the camp is closed will the State Department be 
given permission by the Government of Iraq to inspect the camp? 
And who is to say, as the chairman pointed out, that the Iraqis 
or the Iranians even, wouldn't actually plant weapons in the 
camp when the camp is vacated? There are lots of questions and 
problems with the State Department's latest excuse not to make 
a decision on the FTO status of the MEK. Four years later the 
State Department is still denying the due process rights of the 
MEK. It is time for the decision. The time for delay, delay, 
delay is over. No pistols, no rifles, no bazookas, no BB gun, 
no slingshot has been found in Camp Ashraf. Where are the 
weapons that they say exist?
    It appears to me the State Department is playing into the 
politics of the Iranian mullahs and the Iraqi Prime Minister 
Maliki. The State must pick a horse and ride it. Hopefully they 
will pick the side of the citizens of Camp Ashraf, Camp 
Liberty, and not the side of the little fellow from the desert, 
Ahmadinejad.
    And I yield back to the chairman.
    Mr. Rohrabacher. Thank you very much, Your Honor. And let 
me note that Ambassador Fried will give his opening remarks. We 
will then have questions and answers from the panel here from 
our committee members, after which at the adjournment of this 
hearing--we were not permitted to have a second panel of 
witnesses. So what we will do, we will adjourn immediately 
after this testimony. This subcommittee will be adjourned at 
that moment, and at that moment after adjournment, General 
David Phillips, who was assigned to have duty in overseeing 
Camp Ashraf while he was in the military, will be here taking 
that seat and offering us a briefing on the information that he 
knows about and was permitted to testify yesterday before 
another committee.
    So with that said we will proceed, and Mr. Ambassador, you 
may take what time you find appropriate.

  STATEMENT OF THE HONORABLE DANIEL FRIED, SPECIAL ADVISOR ON 
                ASHRAF, U.S. DEPARTMENT OF STATE

    Ambassador Fried. Thank you, Mr. Chairman. Chairman 
Rohrabacher, Ranking Member Carnahan, Judge Poe, thank you for 
the opportunity to testify. I wish to report to you on progress 
in the administration's efforts to support a humane, peaceful 
and durable solution for the residents of Camp Ashraf as well 
on challenges that remain.
    When I appeared before this subcommittee last December, a 
humanitarian crisis appeared imminent. The Government of Iraq 
had announced its intention to close Camp Ashraf by December 
31, and there were valid concerns that this could result in 
bloodshed. Members of this committee appeared to share such 
concerns. It was under these circumstances that Secretary 
Clinton instructed me to work with Ambassador Jeffrey and the 
United Nations to avert a humanitarian catastrophe. I am 
relieved to report significant progress while recognizing that 
the job is not yet done.
    On December 25th, the Government of Iraq and the United 
Nations signed a Memorandum of Understanding that provides a 
way forward for the safe relocation of Ashraf residents out of 
Iraq. Secretary Clinton quickly announced support for this MOU. 
We called upon the Iraqi Government to respect the terms of the 
MOU and upon the residents of Camp Ashraf to cooperate in its 
implementation. With the signature of the MOU, the Iraqi 
Government lifted the December 31st deadline for Ashraf's 
closure.
    Under the terms of the MOU, the residents of Camp Ashraf 
gained a temporary transit facility, Camp Hurriya, formerly 
Camp Liberty, adjacent to the Baghdad International Airport, to 
which to relocate under guarantees of security. The MOU also 
provides for in-person monitoring by the U.N. Assistance 
Mission in Iraq, UNAMI, headed by the able and energetic 
Ambassador Martin Kobler, and Refugee Status Determination 
process undertaken by the U.N. High Commissioner for Refugees. 
That is UNHCR. Additionally, through the MOU, the Iraqi 
Goverment made a commmitment to the principle of non-
refoulement. These were important steps forward by the Iraqi 
Government.
    The first convoy to Hurriya took place on February 17-18, 
with nearly 400 people. A second and similar convoy occurred on 
March 8th, followed by a third convoy on March 19th, a fourth 
on April 16th, and a fifth convoy on May 5. Nearly 2,000 
residents have moved to Camp Hurriya, over half the total. Each 
convoy has been a significant logistic undertaking. The Iraqi 
Government has provided dozens of coach buses and cargo trucks, 
and thousands of Iraqi security forces have provided for convoy 
security on the road. The preparation of each convoy is 
lengthy, and disagreements, sometimes heated, have occurred 
between the Iraqi authorities and the residents about cargo 
screening procedures and other issues. U.S. Embassy and the 
Department of State follow the progress of each convoy closely. 
The progress to date is remarkable especially given the history 
and emotions involved, but patience and compromise have been 
required and will still be required as the last convoys to 
close Camp Ashraf are organized.
    Living conditions at Camp Hurriya have also had challenges. 
There were early issues with water, sewage and electric power, 
though many have been resolved since. There were early concerns 
about the location and size of Iraqi police units at Camp 
Hurriya, though here too a resolution was worked out. Both 
Camps Ashraf and Hurriya have internet connectivity to the 
world.
    There are issues that remain. For example, the Government 
of Iraq needs to pay greater attention to the repair or 
provision of air conditioning units and other basic welfare 
needs such as accommodations for the disabled. With the onset 
of hot weather and new arrivals, electric power and water needs 
will increase and the number of required utility vehicles will 
grow. The Iraqi Government can work with the U.N. to address 
these concerns. The residents need to engage the Iraqi 
Government, the U.N. and others on these issues in a focused 
manner. It is important that the final convoys from Ahsraf take 
place and that Camp Ashraf be closed.
    Our efforts do not end, however, with Camp Ashraf's 
closure. Indeed, we must not lose sight of our purpose. The 
relocation of Camp Ashraf's residents out of Iraq and the way 
for those residents out of Iraq lies through the UNHCR process. 
With start-up issues being resolved, the UNHCR has intensified 
its efforts and increased resources to interview and review 
residents for refugee status eligibility.
    The next great task in this effort requires continued 
participation of the residents in the UNHCR process and the 
diplomatic work of relocating residents out of Iraq. The United 
States has informed the UNHCR and our international partners 
that we will receive UNHCR's referrals of some individuals. 
These referrals will be reviewed on a case-by-case basis 
consistent with applicable U.S. law. Other governments have 
stated their intention to take similar actions, and some have 
begun the process of reviewing residents themselves.
    Let me be clear. Mr. Chairman, it will be critical for the 
United States to demonstrate leadership in this area. Our doing 
so will be essential to finding a solution. We hope to have the 
support the the Congress and of all those who have expressed 
concern for the residents of Camp Ashraf. We will also need the 
continued cooperation of remaining Ashraf residents to relocate 
swiftly to Hurriya, and continued cooperation of the residents 
of Camp Hurriya with the UNHCR.
    The next stage of this process will be challenging. Some in 
Camp Hurriya may choose to return voluntarily to Iran. Others 
may find that they have credentials and connections to European 
or other nations and can resettle there. Still others will 
require resettlement as refugees or other permission to reside 
in third countries through the UNHCR's goodo offices. Some of 
our European partners have indicated that they will interview 
residents to determine eligibility for resettlement within 
their respective countries. The United States will encourage 
prompt and secure relocation of the residents of Hurriya, and 
again we must be prepared to do our part, hopefully with the 
support of the Congress.
    I want to commend the extraordinary work being done by 
UNAMI and UNHCR missions in Iraq, and the intense engagement of 
U.S. Ambassador Jeffrey and his dedicated team. Their 
diligence, creativity and commitment have been essential to the 
progress so far.
    Mr. Chairman, Judge Poe, this is in the nature of an 
interim report. Much has been achieved since we met last 
December. Much remains to be done. But at last we are on a road 
to resolve this problem through the relocation of Ashraf 
residents out of Iraq.
    Thank you for this opportunity, and I welcome your 
questions.
    [The prepared statement of Ambassador Fried follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Rohrabacher. All right. Thank you very much for your 
testimony. The ranking member will be returning, but we will 
proceed with his permission. And let me get down to the first 
issue about weapons in Camp Ashraf.
    Does the United States Government in any way question that 
there are no weapons and have been no weapons in Camp Ashraf 
since the agreement that was made by the residents, by the MEK, 
back in 2003?
    Ambassador Fried. Mr. Chairman, this issue, that is, the 
issue of Camp Ashraf and inspections came up, as you said 
earlier, and I believe Judge Poe said, in the context of 
litigation in court, in DC court, Federal court, and because it 
came up in the progress of active litigation, I have to be 
extraordinarily careful in getting into this area. It is my 
understanding that the Department of Justice has sent a letter 
to the court, which has now been filed, and I believe it is 
therefore available, which answers some of the questions that 
have arisen. And it is my understanding then that letter 
addresses the question you just asked.
    Mr. Rohrabacher. So you should be able to just tell us 
right out what it is then.
    Ambassador Fried. Yes. I have to be extraordinarily 
careful, but I can say the following. The mandate of my office 
and my charge from the Secretary is to support the process of 
having people move from Ashraf to Liberty, and then from 
Liberty out of Iraq in safety and security. That process needs 
to move forward as fast as we can. Time is not necessarily on 
our side. I don't want to lose time and opportunity. I think I 
understand, or some of the concerns that have been raised 
recently as a result of these court proceedings are unfounded. 
My Government and this administration are determined to move 
ahead. I hope that the residents of Ashraf will continue to 
cooperate.
    I read in an ad that appeared in the Washington Post that 
an inspection of Ashraf is an essential condition, I'm quoting, 
``to continue the relocation of Ashraf residents to Liberty.'' 
I hope this does not reflect a considered opinion. The 
cooperation of the residents of Ashraf and cooperation of the 
Iraqi Government with the MOU has brought us this far. We are 
not there, but it is farther than many thought we would get, 
and we are doing all right considering where we thought we 
would be in December and where we feared we could end up. We 
want to move ahead quickly. We have large tasks before us, and 
it is on those tasks that we are focused.
    I don't know how the issue came up or why. This issue was 
filled with misunderstandings. But my focus is moving forward, 
and it is my strong recommendation to the residents of Ashraf 
and Camp Liberty and all those who wish them well that we move 
forward as fast as we can while we have the chance.
    Mr. Rohrabacher. Now let me interpret that. That is, with 
all of your heart and soul you are recommending that we ignore 
the issue and not ask for a response?
    Ambassador Fried. Mr. Chairman, I would know better than to 
recommend that you ignore any issue in which you have an 
interest. I wouldn't dare.
    Mr. Rohrabacher. I want you to be really careful because 
this is really important, and watch every word that you make. 
Are we satisfied that there were not weapons in Camp Ashraf 
after the 2003 agreement and up until now? I mean it is not a 
tough question, I mean it is yes or no. I mean I understand the 
many implications to yes and no, but knowing the truth is 
certainly--there is this motto that I think somebody said about 
knowing the truth is going to make you free.
    Ambassador Fried. A good saying.
    Mr. Rohrabacher. I think knowing the truth is really an 
important part of making policy.
    Ambassador Fried. I know I am aware of no barrier that 
ought to prevent the process moving forward. The process of 
convoys, the last remaining convoys out of Ashraf to Hurriya, 
the process of UNHCR interviews and the process of the 
international community, U.N., U.S.----
    Mr. Rohrabacher. So are you suggesting then, if we would 
give an affirmative that there are no weapons there that that 
in some way would interfere with the relocation of the people 
who are currently in Camp Ashraf to Camp Liberty? By answering 
the question, that would interfere?
    Ambassador Fried. No. As I understand what you just said, 
if I get that right, I am not saying that. I am being 
extraordinarily cautious because this is a matter of active 
litigation. Motions are being filed. Letters are being sent. 
And I have to be more careful than I would be if you had asked 
this question and there were no litigation going on.
    Mr. Rohrabacher. Okay. So if I just mentioned to you that--
was it the General who testified yesterday? And I believe the 
General testified that there were no weapons, and he was our 
man there. So if he is willing to testify that, or he is not 
testifying, but briefing us on that, he testified yesterday and 
I believe under oath, you can't give an answer based on a 
brigadier general who was in charge of the camp acknowledging 
that?
    Ambassador Fried. It is my understanding that the 
Department of Defense, which knows this issue in a way that the 
Department of State does not, had made the judgment that the 
camp was largely disarmed with no heavy equipment at that time. 
Now my mandate is not to go back and review the record of those 
years. The mandate of my office is to move forward and it is my 
hope that the remaining convoys can move ahead.
    Mr. Rohrabacher. Let me ask you, does your hesitation to 
answer the question in a direct fashion have anything to do 
with the fact that if we were now to go on record as the 
official government position is that Camp Ashraf was disarmed, 
that those people who went in and took the lives of over 30 
residents of Camp Ashraf would then be guilty of a war crime?
    Ambassador Fried. No, not at all. Not at all. My caution is 
a function of the fact that there is active litigation going 
on, which means I have to be more careful than even usual.
    Mr. Rohrabacher. I am sure that we are glad there wasn't 
any active litigation going on after Pearl Harbor, we could 
have never retaliated against the Japanese for Pearl Harbor, I 
guess.
    Well, I will go back to reserve the balance of my time to 
ask questions. And Your Honor, I am sure you have a few things 
you would like to bring up. And now you are dealing with a 
judge now.
    Mr. Poe. And you are going to have to keep your answers a 
whole lot simpler than you have been with Mr. Chairman. Has the 
State Department ever asked to search Camp Ashraf, to your 
knowledge?
    Ambassador Fried. The State Department?
    Mr. Poe. The State Department.
    Ambassador Fried. Not during the time in which I have been 
responsible for this position. And I have good, direct 
knowledge of what has happened since I took my current job last 
November.
    Mr. Poe. Is there anything preventing the State Department 
from searching Camp Ashraf other than the Iraqi Government 
saying you can or you can't?
    Ambassador Fried. Well, as a practical matter Camp Ashraf 
is not our sovereign territory. It is Iraqi sovereign 
territory.
    Mr. Poe. I understand all that.
    Ambassador Fried. Now on the ground I can tell you that we 
have substantial efforts going on to have our people go to Camp 
Hurriya, Camp Liberty. They were there 2 days ago. They are 
there on a pretty frequent basis. We have had people going up 
to Camp Ashraf before to meet with people. Our emphasis, now we 
put our resources to work on the current issues of welfare, 
security of the people at Camp Hurriya, support of the UNHCR 
for its refugee processing, support of the convoys. In my 
judgment that is where our efforts should be, because to get 
these people out of Iraq we have to get them from Ashraf to 
Hurriya and then from Hurriya out. That is where our emphasis 
has been. Our resources are substantial but they are not 
unlimited. And frankly, everything I know convinces me that our 
resources are rightly devoted to the here and now and not to--I 
don't want to see them or our efforts diverted.
    Mr. Poe. Are you aware that in April 2009, the Iraqi 
Government searched Camp Ashraf with dogs and then signed a 
document saying that there were no weapons there, no ammunition 
there? Are you aware of that?
    Ambassador Fried. I have heard that.
    Mr. Poe. There is also a video of the search. Have you seen 
the video of that search where they found no weapons?
    Ambassador Fried. I haven't seen that video.
    Mr. Poe. I don't think it is on YouTube yet. But are you 
aware of any third-party countries that have expressed any 
willingness to take a resident from Camp Liberty? They say they 
will take them?
    Ambassador Fried. Yes.
    Mr. Poe. And those countries are?
    Ambassador Fried. On March 23rd, the UNHCR hosted a 
conference in Geneva attended by the United States, the Iraqi 
Government, a number of European and non-European governments. 
Many governments expressed a willingness to consider taking 
people. There were no pledges or promises or numbers, but there 
were a number of governments that said yes, they were willing 
to work with the U.N. and receive referrals from the UNHCR. The 
United States was one of those governments but we were not the 
only government. That is a start. It is not sufficient in 
itself but it is a good start from which to build and it is 
precisely there, Judge, that we have to throw our efforts.
    Mr. Poe. It seems to me the listing of the MEK as a foreign 
terrorist organization is one factor that makes countries 
hesitant to take these residents even though some of the 
European countries have delisted the MEK. I think that if there 
was delisting that you would have some more, much more 
cooperation with third-party countries in taking these 
individuals back.
    You mentioned in your testimony--my last comment. You 
mentioned in your testimony about the living conditions. As we 
talked about last time, some, Rudy Giuliani, for example, 
mentioned that Camp Liberty was a concentration camp in 
conditions. And we are moving this process further down the 
road, it always takes longer than anyone expects, to get the 
residents from Camp Ashraf, Camp Liberty and then to somewhere 
else in the world.
    What kind of deadline is the Iraqi Government giving the 
whole process and how will that affect the living conditions of 
the people in Camp Liberty?
    Ambassador Fried. The Iraqi Government has suggested that 
as long as the process is moving forward. That is, convoys 
moving from Ashraf to Camp Hurriya, and then the UNHCR process 
moving people and hopefully out of Camp Hurriya, and I should 
add that a few have left. As long as that process is going 
forward there has been much less talk of a deadline. This is a 
good thing.
    In the meantime, there are legitimate issues of living 
conditions that need to be addressed, water, sewage, power, 
that sort of thing, facilities for the disabled. And there does 
need to be progress made because as long as the residents are 
there for how ever long they are there living conditions need 
to be good and they need to be stable.
    Mr. Poe. Mr. Chairman, I would like unanimous consent to 
introduce into the record two documents, testimony by Colonel 
Wesley Martin, before the House of Commons in Canada on May 
15th, 2012, a second document by him regarding some issues of 
the MEK and some questions and facts regarding that issue. I 
would like unanimous consent to put this in the record.
    Mr. Rohrabacher. Without objection.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                              ----------                              

    Mr. Poe. I yield back.
    Mr. Rohrabacher. We have been joined by Brad Sherman, a 
colleague from California. Mr. Sherman, you may take as much 
time as you so find appropriate.
    Mr. Sherman. First, I want to thank the chairman for 
letting me participate. I am not a member of this subcommittee. 
It may have already been introduced into the record, but if 
not, I would like unanimous consent to introduce in this record 
a letter to Secretary Clinton signed by David Phillips, the 
Brigadier General, Wesley Martin, the retired Colonel, and Leo 
McCloskey, the Lieutenant Colonel, retired, all in reference to 
this matter and dated April 19th.
    Mr. Rohrabacher. Without objection, so ordered.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Rohrabacher. And let me remind my colleague that this 
hearing will be over after the testimony and then the questions 
and answers. We will have a second round. Mr. Carnahan should 
have a chance too, hopefully, to ask his questions. After these 
questions and immediately after this hearing is adjourned, 
General David Phillips, who you just quoted in their letter, 
will be briefing us in this spot for those who would be 
interested.
    And you may proceed.
    Mr. Sherman. A hearing followed by a briefing, and who says 
Congress isn't fun?
    We had on May 8th, the U.S. Court of Appeals dealing with 
the writ of mandamus on the MEK. First of all, Ambassador, are 
you aware of any other circumstance where a district court has 
issued a writ of mandamus on an issue of foreign policy 
directed at the State Department? Is this as extraordinary as 
an action as the courts have ever taken on a foreign policy 
matter?
    Ambassador Fried. My experience on those sort of legal 
proceedings is limited. I do gather that it is somewhat 
unusual.
    Mr. Sherman. Somewhere between highly unusual and utterly 
unprecedented would be the way I would characterize it. Now 
during that proceeding, the lawyer for the State Department 
said the MEK did not permit an inspection. They did not permit 
a door-to-door inspection looking for caches of weapons, or to 
actually disarm door-to-door. Since then a letter has been 
signed by the soldiers actually involved in that searching 
effort, the Brigadier General, the Colonel and the Lieutenant 
Colonel, all basically saying that the State Department lawyer 
lied to the court.
    Has the State Department taken action to make sure that the 
court has been advised that this lawyer that had no direct 
knowledge of what actually happened on the ground at Camp 
Ashraf said some statements to the court that might mislead the 
court as to the actual events?
    Ambassador Fried. Sir, this is a matter under active 
litigation and so I have to be very careful. I said earlier in 
response to a similar question that it is my understanding that 
the Department of Justice has sent a letter to the court 
answering some of the questions. I believe that letter has been 
filed and is available, but because it is active litigation I 
have to restrain myself and not go any further.
    Mr. Sherman. Do you disagree with the three officers 
involved that, in fact, a proper door-to-door search for 
weapons was, in fact, conducted at Camp Ashraf?
    Ambassador Fried. Here to, I believe that the letter from 
the Department of Justice addresses these issues, and because--
sir, I am in an awkward position. This is active litigation. It 
is taking place in Federal court. And so my mandate is to try 
to get people safely out of Camp Ashraf over to Camp Hurriya 
and out of Iraq. That is my job, and I hope that the Department 
of Justice letter can clear all that up.
    Mr. Sherman. So your ultimate goal is to get them out of 
Iraq. Is that relocation facilitated by the designation of the 
MEKs foreign terrorist organization, or is it impeded by that 
designation?
    Ambassador Fried. The Secretary of State's decision on the 
designation will be made on the basis of the facts and the law, 
not on even my----
    Mr. Sherman. I didn't ask you what she is going to do or 
what she should do. I just asked whether the current situation 
impedes you and your stated goal. I mean there may be other 
reasons why that designation is maintained, but as long as it 
is maintained does it impede you in achieving your goal?
    Ambassador Fried. I have to work with the designation as 
long as it exists.
    Mr. Sherman. We know that.
    Ambassador Fried. And I will do my best to work with what I 
have got. That decision will be made apart from my office. 
Secretary Clinton did say on February 29th that MEK cooperation 
in the closure of Camp Ashraf will be a key factor in any 
decision, and it is also my understanding that the State 
Department is prepared to make that decision within 60 days of 
the closure of Camp Ashraf.
    Mr. Sherman. Is there anything in the statute that says you 
have to cooperate in moving into what could very well be an 
Iraqi Government plan for a death camp, in order not to be 
designated a terrorist organization? I have read the statute, 
and there are lots of organizations around the world that are 
not cooperating in their relocation. And that is not a factor, 
under the statute at least, in designating an organization for 
a terrorist organization.
    My wife wants me to move or wants to move. I don't want to 
move. I am not willing to move. Have you designated me yet?
    Ambassador Fried. I wouldn't think of interfering in your 
wife's designation in any way.
    Mr. Sherman. But the point I am making is, is there any 
legal basis to, in effect, require relocation in order to not 
be designated or continue to be designated a terrorist 
organization?
    Ambassador Fried. Here to, the question you raised is very 
close to the issues that are now being litigated. So I have to 
stand back, not actually my nature to do so, but it is required 
of me that I stand back because this is active litigation.
    Mr. Sherman. Well, it is active litigation as to which the 
court was misled by the State Department's attorney. It is 
active litigation as to which the State Department appears to 
be using designation as a terrorist organization in order to 
push for policy changes that have nothing to do with whether 
one is a terrorist organization or not.
    And you won't admit it on the record, but you certainly 
haven't argued against my belief that the fact that the MEK is 
designated impairs your efforts to get people relocated outside 
of Iraq. And if you have an argument against that conclusion I 
will give you a chance to--and I don't see you grabbing the 
microphone so I will go on unless you do want to grab the 
microphone.
    Ambassador Fried. I won't argue against that assertion, but 
I will say that the efforts of all those who want to see the 
residents of Ashraf safe and secure and out of Iraq, that 
effort will be enhanced and advanced if we work together to 
help the process move along as it has moved along since 
December. The last convoys need to leave Camp Ashraf for Camp 
Hurriya. Camp Ashraf should be closed. The international 
community needs to step up and do its part to help people get 
out. And since I think it is important that all those who agree 
that should be the objective ought to be working together to 
achieve that objective, and that it is my hope that we can work 
together in that direction.
    Mr. Sherman. The chairman has been very generous. And I 
will just conclude by saying it is by no means clear that this 
relocation is not an Iraqi Government first step toward mass 
executions. But in any case what is clear is that many of the 
countries in the world to which people may be relocated are 
democracies. And let me tell you, it would be extremely 
difficult for the immigration minister of any democracy to 
admit any person from this camp while the organization is 
designated by the great United States as a foreign terrorist 
organization. So if you are able to relocate anybody while that 
designation remains in place, you are doing the near 
impossible. But I am not sure you can do the near impossible 
thousands of times, and we have thousands of people to 
relocate.
    Mr. Chairman, thank you for this indulgence.
    Mr. Rohrabacher. Yes, Mr. Sherman. We have with us 
Congressman Rivera, a member of this subcommittee, and he is 
recognized for what time he may choose to consume.
    Mr. Rivera. Thank you, Mr. Chairman. Ambassador, thank you 
very much for being here today. I am wondering if you could 
apprise the committee on two issues. One is inspections, 
particularly State Department inspections, the status or 
history or evolution of State Department inspections. And 
second, this issue of the belongings, the personal belongings 
of those in Camp Ashraf as well as these reports of 
confiscations and lootings and so forth. So let us start off 
with the inspections.
    Ambassador Fried. As I have said earlier before you came 
in, sir, that because there is active litigation going on about 
Camp Ashraf and about some of these issues, I have to be 
extraordinarily careful. The mandate of my office is to help 
move people in safety and security from Ashraf to Camp Liberty, 
now called Camp Hurriya, and from Camp Hurriya out of Iraq.
    The issue of Camp Ashraf and inspections and all of that 
business is the subject of letters and motions. There is a long 
history to that. It is partly during the many years we had 
troops in Iraq it was the Department of Defense that was 
responsible. The State Department during my time responsible 
for this issue, has devoted its energies to working on the 
priorities I mentioned. That is, the convoys from Ashraf to 
Hurriya, and the living conditions at Hurriya and support of 
the U.N. mission which is to help get these people out of Iraq. 
So the issue of inspections is being handled in another venue.
    I regret any expenditure of energy which will not advance 
the process I laid out. Our priority, it seems to me, should be 
to get people from Ashraf to Liberty and from Liberty out of 
Iraq, and to do so as quickly as we can, safely, and with 
consideration for basic, decent human standards.
    Mr. Rivera. Are you saying because of this ongoing 
litigation or these litigation concerns you can't even comment 
or apprise the committee as to the facts just what has 
happened? I imagine it is not a secret what has happened in the 
past. What has gone on with inspections?
    Ambassador Fried. It is because this is--I mentioned the 
Department of Justice letter in the past couple of days, which 
has been filed with the court, which I believe answers some of 
these questions. I find it frustrating that a perfectly normal 
question, which is what you have asked, is because the topic is 
being litigated right now is more difficult for me to answer 
than I would like. But that is the odd position we are in. And 
I will say again, I regret the diversion of energy into an 
issue which does not advance the cause of my office and my 
department, which is helping people out of Iraq in safety and 
security.
    Mr. Rivera. And the letter that you recently said, is that 
not a letter----
    Ambassador Fried. It is a Department of Justice letter and 
it is part of the court filing, but I believe it has----
    Mr. Rivera. Is that on public record?
    Ambassador Fried. I mentioned it because I understand it 
has been filed with the court and therefore is the public 
record, yes.
    Mr. Rivera. All right. Do you want to apprise the committee 
of the contents of that letter?
    Ambassador Fried. Because it is a Department of Justice 
letter let me just refer it is available. I have to be very 
careful where matters of open litigation and the court are 
concerned.
    Mr. Rivera. Tell me about the belongings issue.
    Ambassador Fried. The issue of cargo property and moveable 
property has been one of the most contentious issues throughout 
the process of moving from Camp Ashraf to Camp Liberty. The 
residents of Camp Ashraf have taken to Liberty enormous 
quantities of personal effects, computers, some cars, 
furniture. They are online. They are communicating by email. So 
a lot of their personal property has been moved.
    It is also true that it is the intent, we understand that 
it is the intent of the residents of Camp Ashraf to sell much 
of their moveable property. There are a large, large number of 
cars. It is their intention to sell it. I believe that an Iraqi 
businessman has already been to Ashraf and looked over some of 
this property. It continues to be an issue of some debate and 
disagreement between the residents of Ashraf and the Iraqi 
authorities. That is, what can be transported, what is personal 
property? Are street lamps personal property? What about 
vehicles? What about generators? These things come up 
frequently. The U.N., with our support, has done its best to 
mediate arrangements for the transport, if necessary, property. 
They have made some progress. In other areas more progress 
needs to be made.
    But you are absolutely right that this is one of the issues 
that is part of the tough negotiations with each and every 
convoy. Progress has been made but there is more to do 
including on this issue.
    Mr. Rivera. Thank you, Mr. Chairman.
    Mr. Rohrabacher. We have joining us today another member, 
and not a member of the subcommittee but a respected member of 
the House. And I would yield to Ms. Sheila Jackson Lee, 5 
minutes.
    Ms. Jackson Lee. Mr. Chairman, let me thank you for your 
kindness, and certainly the kindness of the ranking member for 
allowing me to proceed today. Thank you. Let me also thank you 
for your good works on this issue. It certainly has been a very 
long journey, and I think America can take heart that there are 
sometimes a number of unique issues that there is bipartisan 
unity and concern that has been expressed by this committee.
    To Ambassador Fried, let me thank you for your service. I 
think we have not been on the phone, but we have been on the 
phone in the past. And I think you can understand. I have heard 
a little bit of members' questioning and don't want to 
attribute frustration to their questioning, but I think you can 
assume that there is a great deal of frustration as to where we 
are.
    And so I would like to start, first of all, with however we 
may have determined it, whether we got it by word of mouth, 
whether or not there are other means, can we establish as the 
U.S. Government that the residents of Camp Ashraf and those who 
have been relocated are disarmed or without arms?
    Ambassador Fried. As I said, I have got to be 
extraordinarily careful and cautious because some of these 
issues are matters under litigation. It is true as a matter of 
the historical record that during the period when the United 
States had troops in Iraq we judged that the camp was largely 
disarmed with no heavy equipment. That took place some years 
ago. This issue I have to say came up suddenly. Three weeks ago 
it was not on my list of things to worry about.
    On my list of things to worry about are the completion of 
the convoys from Ashraf to Liberty in safety so that Ashraf can 
be closed, and very much on the mind of the U.S. Embassy in 
Iraq and the U.N. and the State Department generally is the 
issue of finding ways for the people at Camp Liberty to leave 
Iraq in safety and security. And that is where we want to put 
the bulk of our efforts. We have come this far, we are not 
there yet. We need to finish this process and that is going to 
take a lot of work. Anything that drives us backwards I am 
against. Anything that moves us forward I am for.
    Ms. Jackson Lee. I can totally agree with that. So let me 
do this without putting you in the crosshairs. I think it is 
very important to clear up the representation that has now 
taken to the airwaves and to places far beyond this room. 
Because the good work that you are trying to do, the good work 
that members have tried to encourage, some having visited the 
region, should not be now either tainted or undermined by the 
cybersphere, meaning something has gone into massive airwaves, 
massive hearing and massive understanding, and it makes it very 
difficult.
    And so let me proceed in my questioning. So I am making an 
official request on the record to have that clarified. If you 
are unable to clarify it today, in whatever methods have to be 
utilized we need to have that clarified. And I say that because 
we do know remaining at Camp Ashraf are families, I believe 
there are children. But just by the nature of humanity I know 
there are people that are frail who are not as well as others, 
and need to have an orderly departure from the present status.
    So if I missed it I apologize to my colleagues, do you have 
an inventory of individuals who are left in terms of age, 
health conditions, children, new births, et cetera? Do we have 
any of that?
    Ambassador Fried. We do have an approximate profile of the 
residents. There are few, if any children, and I have heard of 
no births in many years, if ever. We do have a profile. There 
are some who are disabled and require special care, and that 
has been one legitimate concern that they be given the support 
they need. We are learning more about the people at Camp 
Hurriya as the interviews proceed.
    As I said earlier, and at the end of March at a conference 
in Geneva I announced that the United States would be receiving 
referrals from the UNHCR and looking at them on an individual 
basis. We need to step up and do our part to show that we are 
part of the solution in all ways, not just moving people from 
Camp Ashraf to Camp Hurriya, but out, and we have to show 
leadership. And I will be frank, the support of the Congress in 
this is critical, and I thank you for it, I really do, and I 
thank the chairman for his support.
    Ms. Jackson Lee. Mr. Chairman, could I conclude? I see you 
moving on that button. Can I conclude with just one round-up if 
I can get it, round it up?
    Again, I may have missed the answer, but I believe we want 
to do right. It looks like we have been talking about safety 
and security for Camp Ashraf for a very long time. I served on 
this committee. I have been serving for awhile. And certainly 
not the time frame of my chairman, but had the privilege of 
having been able to serve, but I also serve on Homeland 
Security. So this has been in the eye of the storm for a very 
long time.
    Could you give us today, a date when you will complete or 
there will be a completion of those, at least out of Camp 
Ashraf into Camp Hurriya, and then the process of relocating? 
What can we look forward to?
    And I will end by this last point. I see a light at the end 
of the tunnel, potentially. I know that you are very sensitive. 
I am a lawyer to an ongoing case. But let me just publicly say, 
I want every manner of vetting to occur. We have Iran and the 
oppression of Iran in our eye, the world has it in their eye. 
These individuals are Iranians. However, the MEK now remains as 
maybe the existing opposition and resistance, but I don't know 
whether anyone can document today, on this day, that they are 
terrorists. Whatever process we can move along, we would be far 
better off if we are assuredly having vetted them and move them 
off the terrorist list. This will aid in any manner of things 
that I think we are all trying to do. So I will just make that 
point.
    You look hesitant to comment, but let me just try to get a 
definitive time frame that you think the removal of these 
individuals or the relocating of these individuals can occur.
    Ambassador Fried. I can't give you a precise time frame 
because the movement of convoys is beyond our control. But let 
me try to be responsive to your question as best I can. Convoys 
have been about 400 persons, a little less than 400 persons per 
convoy. We have had five convoys, almost 2,000 people. The 
convoys started in February. So that is 4 months, five convoys. 
We don't know, assuming there are between 3,200 and 3,400 
people at Camp Ashraf that means three-plus convoys. The Camp 
Ashraf leaders suggested once the convoys could be a little 
bigger to get out faster. They made that suggestion at one 
point. Let us say three more convoys. How fast they move depend 
on a lot of factors beyond our control. But if you do the math, 
right, five convoys, 4 months, three convoys remaining, at that 
point your math is as good as mine. At least this is knowable. 
We can have an educated way to frame up the timing.
    Much less knowable is the issue of resettlement, and it is 
important that this process begin. The people at Camp Liberty, 
at Camp Hurriya ought to see that there is way out, they are 
out of Camp Hurriya in safety and security. There have been a 
few that have left, but these are individuals, and we need to 
see that process moving ahead. That is where my office, that is 
where the Department of State is putting its efforts working 
with the U.N., the UNHCR and other interested governments. That 
will increasingly be and should be our priority.
    You said it well, ma'am, on light at the end of the tunnel, 
an old cliche but it works for this. But we are not going to 
get there on autopilot. It is going to take at least as much 
work to have a good outcome as we have put into it so far. That 
work we are prepared to do, and it is my hope that everyone 
will look forward and find ways to move this ahead while we 
can.
    Ms. Jackson Lee. Mr. Chairman, I cannot thank you enough 
for your kindness, and I will just say to you as I inquire of 
this committee, whatever we can do, those of us who you have 
been courteous enough to extend time to, to join in the 
delisting of the MEK. I think that will go a long way for the 
resettlement of those who are now in Camp Ashraf.
    I have just heard Ambassador Fried, who I take at his word, 
and I am going to compliment the administration for still 
staying in the fight in moving these individuals along. But if 
there is any hindrance by Iraq that stops a convoy from moving 
faster than under 4 months, let us find out what that is. And 
if there is any hindrance in now moving to the next step of 
delisting the MEK for many reasons, I hope that we can work 
together in a bipartisan way to provide some assistance from 
the Congress to move this along and move it along now.
    Mr. Rohrabacher. Thank you very much----
    Ms. Jackson Lee. I yield back.
    Mr. Rohrabacher [continuing]. Ms. Jackson Lee, and we are 
grateful for your involvement in this issue.
    A couple of notes from the chairman, that is me. Well, how 
about this, Mr. Ambassador. You were at the UNHCR meeting in 
Geneva in March, and it was a gathering of countries that are 
usually receptive to refugees. In your testimony, you hint at 
bringing some MEK members to the United States as well as a 
show of leadership by doing that. That was what you mentioned, 
I believe you said show of leadership, which is accurate. I 
believe you raised this point in Geneva, and in regard to those 
MEK members, who have relatives in the United States, under the 
humanitarian parole process.
    What reaction did you receive in Geneva to this reaching 
out on the part of the United States?
    Ambassador Fried. I believe there was a good reaction. That 
is, the UNHCR appreciated the fact that the United States was 
ready to stand up and declare our willingness to do our part. 
Other governments expressed their willingness to at least 
consider taking in people. Now a year ago, I am told, there was 
much less willingness. So I think a lot of governments have 
looked at this, looked at it again and decided that we need to 
move forward. I still think that a U.S. leadership will be 
needed. The Administraton is preparing to look at UNHCR 
referrals, I should say on an interagency basis, not just State 
Department but Department of Justice, FBI, Homeland Security. 
We are looking at this----
    Mr. Rohrabacher. What would you say the Congress can do to 
help facilitate this besides, of course, not asking you pointed 
questions?
    Ambassador Fried. I welcome pointed questions in service of 
a good cause, believe me.
    Mr. Rohrabacher. It is the pointed answers we don't get 
back that we are worried about, but that is okay.
    Ambassador Fried. Far be it from me to suggest what 
Congress should do, but a general support for this aspect of 
the whole process. That is, if the United States is going to 
review referrals from the UNHCR consistent with applicable U.S. 
law, which is our intention, I think any sign of bipartisan 
support from the Congress for this course of action would be 
enormously encouraging not just for us. It is not that we need 
the thanks, it is that other governments will look at us, and 
if they see that, even in an election year, the executive 
branch and the Congress on a bipartisan basis are determined to 
do the right thing and move forward, that I am convinced will 
be a powerful and welcome signal. It will help break this free 
and allow us to move forward.
    Mr. Rohrabacher. Obviously I agree with that assessment. 
Whenever the United States Congress and the administration, 
Republican, Democrat, work together we are a powerful force in 
the world. Let me just say, obviously the point that Ms. 
Jackson Lee just made as well as has been made by the other 
members of the committee that you are not really able to fully 
focus on for whatever reasons, I understand, that taking them 
off the terrorist list we all believe would facilitate this 
solution that we are talking about and would also have an 
incredible impact overseas.
    Let me just say in passing on this that issue has been 
discussed. We realize just from your answers there is 
limitations about what you can say. But my belief is is that, 
and I am not condemning you for this, I am saying that you are 
a good soldier. You are a troubleshooter that comes in and 
tries to help our country get out of messes that somebody else 
created. I understand that. But I think that our State 
Department is being overly sensitive to the feelings of 
murderous regimes that are now in power in Iraq and Iran.
    And I say murderous regimes because I was kicked out of 
Iran, along with Mike Hodel, after bringing up the Camp Ashraf 
murders to President Maliki who just didn't want to hear about 
that. I think that ignoring the slaughter of innocent people is 
not going to make things better when you are dealing with 
regimes like Iraq and Iran. I understand they are still in 
power there, and thus we have other thousands of people to be 
concerned about. The thousands of people at Camp Ashraf--if we 
hurt their feelings we ought to go and slaughter those people 
too. So I understand you are trying to save lives. But I think 
that people who are engaged in such activity don't really 
respect it when you are overly sensitive to their feelings.
    It seems to me that what we are talking about, Ms. Lee, is 
that there has been a dishonorable deal made somewhere along 
the line in our, not this administration, not, who knows, last 
administration, who knows when, but there has been a 
dishonorable deal somewhere along the line with the mullah 
regime in Iran that we will not support opponents of the 
regime. And I think that was very indicative or very 
demonstrable, when the Arab Spring demonstrations in Tehran 
were taking place our Government was noticeably silent in 
support for those demonstrators in the streets of Tehran 
against the mullah dictatorship. And I think that that same 
kind of, that that indicates that there was some sort of 
understanding reached with the mullahs. And of course now, part 
of that understanding could well be that we will not be 
supporting the MEK in any way which the mullahs look as very 
symbolic to people who are resisting their dictatorship.
    If, indeed, such a deal has been struck, which people are 
trying to enforce now while saving the lives of these MEK 
people, it was a dishonorable deal to begin with. And I know 
how difficult it would be then at this point to try to save the 
lives of these people and still keep that deal if the mullahs 
look at the MEK as they do as opponents to the regime. And what 
is the difference between a freedom fighter and a terrorist? 
Well, there is a difference between a freedom fighter and a 
terrorist. Freedom fighters want to institute freedom and 
democracy and fight soldiers, and terrorists kill innocent 
people in order to terrorize populations into submission.
    A little bit about, before we rang up here, we are talking 
about, the fly in the ointment here from what I am 
understanding from your testimony, is that the people of Camp 
Ashraf who are still there said they don't want to leave unless 
there is an inspection to verify that there aren't any weapons 
there. Now why in the world would someone like that in that 
situation make that demand? Well, I think that is totally 
rational. And maybe you can tell me where I am wrong, but we 
have a situation where--well, first of all, if whence they 
leave they have to realize who then would verify that there 
aren't any weapons. It would have to be the Iraqis or the 
Iranians who would be verifying that which, of course, would be 
unacceptable. I mean you can't believe whatever they would tell 
you. They may well plant weapons.
    The other thing is that the residents of Camp Ashraf 
remember full well when our Government had made an agreement to 
protect them. And they remember full well that our troops were 
asked to retire and leave the area just prior to a genocidal 
attack of Iraqi troops in which you had innocent people 
slaughtered. Over 30, 35 people were murdered, 300 were 
wounded. And our troops withdrew right before that attack. Now 
that would kind of eat at peoples' ability to maybe just trust 
us that we are going to do the right thing, and then maybe that 
is the reason you want to make sure that this is verified while 
they still have a chance to verify it.
    And by the way, this subcommittee has been denied 
permission to investigate that incident. We have been denied 
the ability--this is the Oversight and Investigations 
Subcommittee who has been denied the right to investigate this 
slaughter of people who under the protection of the United 
States Government. And we have been denied that as well as a 
number of other aspects of the MEK listing as a terrorist 
organization.
    So I am sure none of these were decisions that you made 
years ago, but now they have thrown you into the position of 
having to come here and face this questioning and answer with 
the type of answers that you have given us today. I wish you 
luck. I wish you success. I hope that we get these people out 
of there and we get them over to Camp Liberty and then we get 
them to countries around the world that will accept them. And 
with everything I just said I know what a tough job you have 
got, and we are going to work with you, but we are still going 
to put this administration and our Government on the spot when 
they make decisions like the one we are talking about that lead 
us to this situation.
    Ms. Jackson Lee. Mr. Chairman?
    Mr. Rohrabacher. All right, you wanted to----
    Ms. Jackson Lee. Introduce----
    Mr. Rohrabacher. Yes, I will be happy to yield for moment.
    Ms. Jackson Lee. Mr. Chairman, I know from your heart you 
are looking forward to working with the administration in 
trying to get something done. If I might ask unanimous consent 
that may put a light on this. Obviously I am not reading a 
classified document, but I think it is a document that you 
read, and that is the Wall Street Journal, dated May 14th, 
2012.

          ``Iran Exile Group Nears U.S. Rebirth. The State 
        Department is moving to take MEK off ban list at risk 
        of angering Iran.'' And if I might just briefly say as 
        I submit this one page into the record and as unanimous 
        consent, ``The Obama administration is moving to remove 
        an Iranian opposition group from the State Department's 
        terrorism list, say officials briefed on the talks, in 
        an action that could further,'' they use the word 
        ``poison,'' ``Washington's relations with Tehran at a 
        time of renewed diplomatic efforts to curtail Iran's 
        nuclear program.''

    I think the basis of it is that there is a rumor. And I 
would like to ask unanimous consent to put this in the record 
and hope that this will ultimately bear fruit. But it is from 
the Wall Street Journal.
    Mr. Rohrabacher. With no objections, so ordered.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
       
                              ----------                              

    Mr. Rohrabacher. And with that said I might note to my 
colleague, she wasn't here when this was announced, that the 
minute that this hearing is going to be adjourned, which should 
be within 30 seconds of now, it will be adjourned, but we will 
have a briefing by General David Phillips who oversaw security 
at Camp Ashraf, to give us a briefing on what he knows about 
this issue.
    So with that, thank you. And Mr. Ambassador, thank you for 
coming.
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    Mr. Rohrabacher. And this hearing is adjourned.
    [Whereupon, at 4:45 p.m., the subcommittee was adjourned.]
                                     

                                     


                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


[Note: Responses to the above questions were not received prior to 
printing.]

                                 <all>

</pre></body></html>
